<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN
               SERVICES, EDUCATION, AND RELATED AGENCIES
                        APPROPRIATIONS FOR 2002
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 C. W. BILL YOUNG, Florida           DAVID R. OBEY, Wisconsin
 ERNEST J. ISTOOK, Jr., Oklahoma     STENY H. HOYER, Maryland
 DAN MILLER, Florida                 NANCY PELOSI, California
 ROGER F. WICKER, Mississippi        NITA M. LOWEY, New York
 ANNE M. NORTHUP, Kentucky           ROSA L. DeLAURO, Connecticut
 RANDY ``DUKE'' CUNNINGHAM,          JESSE L. JACKSON, Jr., Illinois
California                           PATRICK J. KENNEDY, Rhode Island
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 DON SHERWOOD, Pennsylvania         

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Craig Higgins, Carol Murphy, Susan Ross Firth, Meg Snyder,
             and Francine Mack-Salvador, Subcommittee Staff
                                ________
                                 PART 4B

                      NATIONAL INSTITUTES OF HEALTH

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 74-825                     WASHINGTON : 2001





                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2002

                              ----------                              

                                            Thursday, May 17, 2001.

                     NATIONAL INSTITUTES OF HEALTH

                               WITNESSES

DR. RUTH KIRSCHSTEIN, ACTING DIRECTOR, NATIONAL INSTITUTES OF HEALTH
STEPHEN A. FICCA, ASSOCIATE DIRECTOR FOR RESEARCH SERVICES
ELLIE EHRENFELD, DIRECTOR, CENTER FOR SCIENTIFIC REVIEW
MARVIN CASSMAN, DIRECTOR, NATIONAL INSTITUTE OF GENERAL MEDICAL 
    SCIENCES
DONALD A.B. LINDBERG, DIRECTOR, NATIONAL LIBRARY OF MEDICINE
DR. JUDITH L. VAITUKAITIS, DIRECTOR, NATIONAL CENTER FOR RESEARCH 
    RESOURCES
    Mr. Wicker. The subcommittee will come to order. I think we 
are all friends here, and I have spoken with Dr. Kirschstein 
immediately before we convened, and we have agreed upon an 
order.
    Dr. Kirschstein, we are delighted to have you once again 
today, and you may begin and proceed in your own fashion. Glad 
to have you.

                           Opening Statement

    Dr. Kirschstein. Thank you, Mr. Wicker, Mr. Chairman.
    At this final hearing of the year in regard to the fiscal 
year 2002 President's budget request, we will give you an 
overview of the activities which undergird the programs of the 
NIH, the infrastructure activities that support and enable 
biomedical research enterprises throughout the United States 
and, indeed, throughout the world.
    In support of the research enterprise at the Bethesda 
campus and our facilities in North Carolina, Baltimore, and 
Montana, we present a budget proposal for the buildings and 
facilities program.
    This annual B&F appropriation is the only means by which 
the public supports the crucial physical infrastructure 
required to carry out the intramural component of the 
biomedical research mission of NIH.
    Over the last several years, a central part of this program 
has been the construction of the new state-of-the-art hospital, 
the clinical research center to house the intramural patient-
related research program, and construction of this clinical 
research center is ongoing. We expect to occupy the new 
hospital late in 2003.
    The construction project is being carried out through the 
General Services Administration as the contracting agent for 
the NIH. GSA has contracted with a firm as the development 
manager, which, in turn, subcontracted with a construction 
manager.
    We feel it important today to apprise you that certain 
issues have arisen between the development manager and the 
construction manager that they have not been able to resolve, 
and they have concluded that it is in their best mutual 
interest to terminate the services of the current construction 
manager under the contract. GSA has concurred, as has the 
Office of General Counsel of the Department, and has deemed it 
to be a rational and appropriate action.
    The new construction management contract is expected to be 
awarded within the next two weeks. We have assurances that the 
quality of the work on the site by the trade contractors has 
been very high and the work is continuing. We do not expect any 
major schedule delays as a result, but we plan to keep you and 
all the members of the subcommittee informed about this matter 
and provide updates as needed.
    Now Mr. Ficca will present the remainder.
    Mr. Wicker. Let me just go ahead and ask you now.
    Dr. Kirschstein. Okay.
    Mr. Wicker. What was the problem here?
    Dr. Kirschstein. The development management contractor and 
the construction contract manager have reached a settlement, 
and we are not at liberty to discuss that in this session. We 
would be pleased to come down and brief the committee at some 
time in the future.
    Mr. Wicker. And the terms of the settlement may not be 
something that you would divulge at this point, but the initial 
problem and the initial allegations----
    Dr. Kirschstein. It was an attempt to assure that the 
project could move forward very rapidly with a specific level 
of cost, and that could not be managed.
    Mr. Wicker. Okay. Now, I think the subcommittee Chairman 
would like to ask you to comment about the costs associated 
with this termination.
    Dr. Kirschstein. We do not know those as yet. The 
development manager and the contracting construction manager 
reached a settlement the other day, but we do not know. As soon 
as we have information that we can provide and that GSA says we 
can provide, we will come forward.
    Mr. Wicker. All right. Very well.
    Dr. Kirschstein. We do not think that this will affect the 
construction, and we have plans to handle it expeditiously.
    Mr. Wicker. Do you think it has implications for out-year 
costs for your facility plans? Do you think that it will be to 
that magnitude?
    Dr. Kirschstein. We are not sure, but we will tell you as 
soon as we know.
    Mr. Wicker. All right. Then thank you very much. We do look 
forward to visiting with you in another forum on that 
particular issue.
    Dr. Kirschstein. Yes.


              BUDGET REQUEST FOR BUILDINGS AND FACILITIES


    Mr. Ficca, the associate director for research services, 
will now provide you with other specifics related to the 
President's 2002 buildings and facilities program.

                           Opening Statement

    Mr. Ficca. Thank you, Dr. Kirschstein.
    Mr. Chairman and members of the committee, as Dr. 
Kirschstein said, the annual buildings and facilities 
appropriation is the only means by which the public supports 
the crucial physical infrastructure required to carry out the 
intramural component of the biomedical research mission of the 
NIH. As approaches to basic and clinical research evolve, the 
demand for and on research facilities change, as well. Properly 
planned, equipped, safe, flexible, and sustainable research 
facilities are important resources in the formula for achieving 
the next scientific advance or biomedical breakthrough.
    Science drives the facilities program at the NIH. The 
fiscal year 2002 building and facilities budget request is the 
product of a deliberate corporate facilities planning process 
that addresses the NIH's immediate and longer-range facility 
requirements for the entire agency. The goal of the planning 
process is to optimally meet the changing facility needs of the 
NIH research programs at the Bethesda campus and vicinity, as 
well as field stations in Frederick, Maryland; Research 
Triangle Park, North Carolina; Hamilton, Montana; and 
Baltimore, Maryland.
    While we customarily think of the facilities program as 
bricks and mortar, it must also be considered within the larger 
context of sustaining the research infrastructure. In addition 
to the line item B&F projects, this includes a broader 
perspective related to essential safety and health, 
environmental improvements, transportation management, energy 
efficiency, and intramural research priorities.
    The NIH must maintain valuable research capacity and ensure 
the safety of NIH facilities and their occupants. For example, 
an essential safety and occupational health component of our 
request addresses asbestos abatement, fire protection and life 
safety, and the quality of indoor air in our facilities.
    We are continually seeking environmental improvements, and 
new environmental regulations affect the way NIH carries out 
construction. Changes in national and local building codes 
require funds to support programs that systematically address 
corrective actions in building accessibility and life safety.

                             ENERGY SAVINGS

    The NIH is continuing an aggressive energy management and 
energy conservation program on the Bethesda and Poolesville 
campuses, as well.
    This nationally-recognized program has returned great 
benefits to NIH. For example, while the costs of energy have 
escalated rapidly, we have been able to control the increase in 
the cost of energy to the NIH in several ways. Last year, while 
the amount of research space on campus grew and building 
standards for heating, air conditioning, and electrical power 
grew more stringent, NIH's energy consumption went down on a 
unit basis by over 3 percent, helping to offset a 29 percent 
increase in the unit cost of energy nationwide.
    In fiscal year 2001, NIH received rebates of more than 
$2,000,000, most of which is attributable to the energy-savings 
measures taken in the new construction of the Louis Stokes 
Laboratories Building.
    In our partnership with our electrical utilities provider, 
we are implementing a plan to construct a cogeneration facility 
to provide NIH with 23 megawatts of electricity and 
simultaneously produce almost 200,000 pounds of steam per 
hour--enough to offset the need for even another boiler. This 
will save NIH more than $55,000,000 in energy costs over the 
next 12 to 15 years, reduce pollutant emissions by about 600 
tons per year, and reduce greenhouse gas emissions by about 
100,000 tons per year.
    This is all made possible through the responsible and 
effective stewardship of NIH facilities, in large part through 
the building and facilities program.
    The construction program supported by the proposed fiscal 
year 2002 appropriation request strikes a balance among three 
critical facility priorities: the creation of new facilities 
for new and expanding scientific opportunities, the upgrading 
of existing facilities to keep pace with the changing 
requirements of ongoing NIH programs, and the responsible 
stewardship of the entire NIH real estate portfolio.
    Safe, modern facilities, including the appropriate building 
systems and utility infrastructure are a basic requirement to 
effectively carry out NIH's intramural research program. They 
are necessary to enable NIH's expansion into new areas of 
investigation, to safely and effectively house an expanding 
cadre of researchers and trainees, and to attract and retain 
the best scientists.
    The building and facilities request for each budget year 
strives to optimize the distribution of resources among the 
program activities so that, year-to-year, the continuity of the 
individual projects, and the B&F program as a whole, is 
maintained.
    Within this balanced mix of new construction and 
renovation, essential safety and health projects, and repair 
and improvement, three projects in this request are 
particularly important to the NIH's research plans: The John 
Edward Porter Neuroscience Research Center, the Central 
Vivarium and Animal Research Center, and the Building 10 
Revitalization Program.
    That ends my statement. I will be happy to answer any 
questions.
    [The statement of Mr. Ficca follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                           ASBESTOS ABATEMENT

    Mr. Wicker. Before we proceed, let me just ask you, Mr. 
Ficca, about the asbestos abatement in your testimony. Do I 
understand there is still, at NIH facilities, asbestos in some 
of our older buildings?
    Mr. Ficca. Yes, that is the case, primarily in many of the 
mechanical rooms and mechanical spaces and the buildings 
systems spaces there is this----
    Mr. Wicker. Is that on all three campuses?
    Mr. Ficca. Yes, that would be the case. We have a master 
plan of abatement, and there is an ongoing program that 
systematically addresses that, as well as on a project-by-
project basis there is a built-in plan that addresses abatement 
when that is necessary.
    Mr. Wicker. Abatement when necessary? When would it not be 
necessary?
    Mr. Ficca. In some cases where there is asbestos-containing 
materials and it has not been disturbed or deteriorated, it is 
called ``non-friable,'' that is, that it is encapsulated and 
not airborne. If a renovation or alteration can be performed 
without disturbing the otherwise-encapsulated asbestos-
containing materials, then the extra expense for that abatement 
would be mitigated.

                      HEALTH AND SAFETY COMPLIANCE

    Mr. Wicker. All right. And then, secondly, let me ask you 
about your testimony regarding compliance with State and 
Federal codes concerning health and safety. Am I to understand 
that the leading health institution in the world is being told 
by State and Federal agencies how to make its physical plant 
more healthy?
    Mr. Ficca. The answer to that is, for example, in 1999 
there was a new occupational safety regulation that required 
sprinkling in any public space that was on an elevated floor.
    We have an older building with a conference center up on 
the sixth floor. Immediately, when that code was passed without 
any grandfather clause we were in a noncompliance situation. To 
become compliant, we immediately prepared a plan which would 
require a mitigation of that situation to require egress, as 
well as sprinkling the facility, and that is underway. And so 
we are in compliance, but the older facilities--it has been 
quite an investment to continue to bring them up to safety.
    We do not just comply. We have plans to be a benchmark for 
that. The newer facilities I think meet that standard; the 
older facilities require some investment.
    Mr. Wicker. So it is primarily safety codes rather than 
health codes in your facilities?
    Mr. Ficca. I would say that is a fair statement. Yes, sir.
    Mr. Wicker. Well, thank you very much, Mr. Ficca. Perhaps 
the Committee will get back to you.

                     Introduction of Dr. Ehrenfeld

    Dr. Kirschstein. The next presentation will be by Dr. Ellie 
Ehrenfeld, the Director of the Center for Scientific Review, 
and all the subsequent presentations will be related to our 
extramural programs. Dr. Ehrenfeld will discuss the NIH peer 
review system.

                            OPENING REMARKS

    Dr. Ehrenfeld. Mr. Wicker, the Center for Scientific Review 
receives approximately 46,000 applications per year for 
research grant support. The Center, itself, conducts the 
initial review of about three-quarters, about 75 percent of 
those applications, and then each of the funding Institutes 
conducts its own review of a subset of the remaining 
applications.
    There are two parts to the review process at NIH. The first 
is the initial scientific review, which is a review for 
scientific and technical merit. It is conducted by panels of 
scientific experts from the research community, and they come 
to what we call a ``study section meeting'' three times a year 
to review those applications.
    The second level of review is done by the funding 
Institute, itself, which by law has a National Advisory Council 
for that purpose.
    The membership on the councils includes a much broader 
spectrum of individuals. It certainly includes scientists from 
the fields, but it also has members of the lay community, 
representatives of advocacy groups, often health care 
providers, ethicists, and so on.
    Now, they weight very heavily the scientific evaluation 
that was conducted initially, but they also consider the need 
to fund certain areas of research because of perhaps public 
health needs or a scientific opportunity, and in the end it is 
the Institute, not the study section, but the Institute that 
makes the funding decision, using advice from both of those 
groups.
    The peer review system, in my opinion, is, without any 
question, the major determinant of the tremendous success that 
we have in biomedical research in the United States, and the 
study section is probably the most critical part of that peer 
review process. It is dependent upon two elements. The first is 
that you have to have the right people sitting around the table 
reviewing the grants. Our staff solicits nominations quite 
broadly. They identify and recruit appropriate reviewers with a 
diverse scientific outlook, with different racial, ethnic, 
gender distribution, geographic distribution, from small 
institutions, large institutions, public ones, and private 
institutions, and so on.
    It is very important, of course, that the scientific 
community believes and perceives that their applications will 
be reviewed fairly and without bias by people whom they 
recognize as being knowledgeable in the field and whom they 
respect as scientific contributors in the field.
    Then the second critical element is the scientific 
boundaries of the study section, itself. What research topics 
will be reviewed in a given study section?
    Science is changing very rapidly right now. New tools are 
being developed. They are being very rapidly applied to many 
new areas of biomedicine, and it is quite important that we 
keep our study sections current, that we accommodate newly-
emerging fields and new ways of doing scientific research as 
they come up.

                           RESEARCH TRAINING

    I think with the right reviewers and the right study 
sections we are very well poised to continue the very high 
quality of scientific review that goes on.
    I thank you for the opportunity to make this presentation. 
I would be happy to answer questions.
    Mr. Wicker. Thank you.
    [The statement of Dr. Ehrenfeld follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Dr. Kirschstein. The next presentation will be by Dr. 
Marvin Cassman, who is the director of the National Institute 
of General Medical Sciences, which does a very large fraction 
of research training, and so he will present research training 
programs on behalf of all of NIH.
    Mr. Cassman. Thank you, Mr. Chairman.
    I am pleased to present the research training mission of 
NIH, which is very broadly distributed. Every institute 
supports some aspect of research training, depending on their 
interest and their mission.
    The overall mission of the National Institutes of Health is 
both to support research that will lead to an improvement in 
the Nation's health and to ensure an adequate supply of trained 
researchers to aid in the pursuit of this goal. These two 
efforts are tightly linked in the United States by the fact 
that most of the basic research in this country is conducted at 
academic laboratories. We are so used to this that we almost 
take it for granted, but it is not necessarily the norm 
everywhere.
    As has often been noted, one of the great strengths of 
American science is that new discovery and the training of the 
next generation of discoverers take place in the same 
locations.
    Research training has been part of the NIH mission since 
its earliest days, but many of the current training programs 
derive from the National Research Service Act, the NRSA 
legislation that was established in 1974.
    In fiscal year 2000, the NIH research training budget for 
pre- and post-doctoral students equaled $540,000,000, or about 
3 percent of the total NIH budget.
    In addition, a still larger number of students and post-
doctoral fellows are supported through their employment on 
research grants. While contributing to the goals of the 
research program, the students are also completing an essential 
part of their apprenticeship in research.
    There are other programs that NIH uses for training, 
including the Research Career Development Awards. These are for 
specialized training, targeted to investigators at the post-
doctoral level and beyond, and in recent years NIH has used 
these awards to address the shortage of clinical investigators.
    In summary, research training is a critical part of the NIH 
mission. In the words of a 1988 report from the Office of 
Technology Assessment, ``policy-makers should seek to prepare a 
cadre of versatile scientists and engineers for research and 
teaching careers, invest in an educational system that creates 
a reservoir of flexible talent for the workplace, and ensure 
opportunities for the participation of all groups.'' This is 
precisely what the NIH training programs have attempted to do, 
and I believe have done with considerable success. This has 
been attested to by several recent reports, one from the 
National Academy of Sciences and another an internal study 
tracking NIH trainees.
    Thank you, sir. I will be happy to answer any questions.
    Mr. Wicker. Thank you.
    [The statement of Dr. Cassman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
               NATIONAL LIBRARY OF MEDICINE--INTRODUCTION

    Dr. Kirschstein. Dr. Donald Lindberg, the director of the 
National Library of Medicine, will discuss dissemination and 
communication of research information, but particularly from 
the vantage point of a national library.
    Dr. Lindberg. Mr. Wicker, the product of the National 
Institutes of Health basically is improved understanding of 
science and discoveries, and the discoveries are conveyed by 
scientific papers published in peer review journals, which are 
then indexed by the National Library of Medicine and/or a 
database called MEDLINE. They are then placed on the shelves of 
libraries and on the desks of doctors and scientists.
    This is a large body of knowledge. We index 450,000 papers 
a year and add those to MEDLINE, which contains already 
16,000,000 references. So my point is that, were it not for 
this orderly process and the role of the libraries, us and the 
national network of libraries, major discoveries could be lost, 
and that has happened in the past.
    Three actions of the Congress have impacted us and helped 
us, and I want to mention those three particularly. In 1988, 
the Congress established the National Center for Biotechnology 
Information, anticipating that the human genome project would 
produce a vast amount of data, as it has, on sequence of 
protein and nucleic acids and gene maps and so forth.
    Now, all this has, in fact, come to reside at NCBI in the 
GenBank. NCBI serves the world, basically, by exchanging all of 
the data with Europe and with Asia once a day.
    Ten years later, the Congress--this committee and the 
comparable Senate Appropriations Committee--urged NLM to make 
the MEDLINE database that I referred to earlier and the 
molecular biology databases free for searching on the Internet. 
We, of course, did this.
    We discovered quickly that the baseline of searchers went 
from 7,000,000 a year to 75,000,000--went ten times in the 
first year--and then doubled to 140,000,000 and then to 
240,000,000. And, to our amazement, a third of the use is from 
the public, not doctors, not scientists, so we recognized that 
this reflected the thirst of the people for honest access to 
health knowledge.
    The Congress then actually a year later, in 1999, urged 
that a database be created of clinical trials of life-
threatening and important illnesses, and the FDA and NLM and 
NIH undertook to do this, and NLM produced a database that we 
now are starting with the NIH director's agreement, with NIH-
supported trials. There are 5,500 such trials operating in 
55,000 cities in the U.S. This is all available to the public, 
as well.
    In order to look forward to how to continue to do a good 
job in the future, we participate in next-generation Internet 
experiments with other Federal agencies, and we participate in 
a multi-lateral initiative in malaria, a much smaller program, 
aimed at the cure of malaria in Africa.
    In closing, I should say that we, too, share a commitment 
to provide information to under-served populations and to do 
what we can to reduce disparities in health care.
    Thank you.
    Mr. Wicker. Thank you.
    [The statement of Dr. Lindberg follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                             NCRR PROGRAMS

    Dr. Kirschstein. And last but not least at all, Dr. Judith 
Vaitukaitis, the director of the National Center for Research 
Resources, will present its programs which provide 
technological, clinical, animal, and other resource facilities 
for all the academic community and other grantees.
    Dr. Vaitukaitis.
    Dr. Vaitukaitis. Thank you, Dr. Kirschstein.
    Mr. Wicker, the classic image of the lone scientist making 
great discoveries in a small laboratory is a faded image of the 
past. Biomedical science of the 21st century is more complex 
and usually requires a team of investigators with complementary 
expertise. Consequently, NCRR programs must respond to that 
paradigm shift and provide the critical research infrastructure 
that enables all lines of biomedical inquiry, ranging from the 
molecular level to the whole organism. In many cases, to do 
this NCRR partners with other NIH components, as well as with 
other Federal agencies.
    NCRR programs concentrate in four broad areas. The first is 
to enhance the research capacities of institutions through the 
Research Centers of Minority Institutions programs, or the RCMI 
program, and through the Institutional Development Award, or 
IDeA program. Both provide support to build the biomedical 
research capacities of institutions which have not previously 
fully participated in the NIH research programs.
    Both RCMI and IDeA programs support faculty development, 
upgrading research laboratories, and acquiring state-of-the-art 
research instrumentation. In addition, the biomedical research 
infrastructure network program, or BRIN, develops linkages 
between a range of undergraduate institutions within the State, 
along with ties to graduate schools to build a fundamental, 
science-based infrastructure with an IDeA States.
    Other NCRR programs make competitive grants to universities 
to modify or build research facilities or purchase off-the-
shelf instrumentation--for instance, DNA sequencers, 
microscopes, and the like--that cost at least $100,000.
    NCRR enables access to a wide variety of other tools and 
advanced technologies, through a variety of resource centers. 
For example, the Biotechnology Centers allow investigators to 
access synchotrons, highly-sophisticated imaging resources; in 
addition, resources include the regional primate centers, as 
well as the national network of clinical research centers 
located at academic institutions nationwide. Both types of 
centers provide resources for assuring that the knowledge 
gained from basic research will benefit patients.
    In summary, NCRR administers several complementary programs 
and research resource centers, provides funds to enhance and 
construct modern biomedical research facilities, and to develop 
the biomedical research capacities of those institutions which 
have not had the opportunity in the past.
    In short, these programs provide state-of-the-art research 
resources and facilities that host more than 20,000 
investigators annually.
    Thank you.
    [The statement of Dr. Vaitukaitis follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                          PEER REVIEW PROCESS

    Mr. Wicker. Thank you very much.
    I appreciate the testimony, and my first question is for 
Dr. Ehrenfeld.
    I want to try to understand this peer review process.
    Dr. Ehrenfeld. Yes.
    Mr. Wicker. And so I understand that you receive some 
46,000 applications per year; is that correct?
    Dr. Ehrenfeld. Correct.
    Mr. Wicker. And 75 percent of them are handled one way and 
25 percent of them are handled another way; is that correct?
    Dr. Ehrenfeld. That is approximately correct. Yes.
    Mr. Wicker. Okay. Now, what is the 25 percent?
    Dr. Ehrenfeld. About 25 percent of the applications that 
are reviewed at NIH are reviewed within the funding Institutes, 
themselves, by study sections that they create. Those 
applications, in general, are applications that are highly 
mission specific. They are either responses to special requests 
for applications----
    Mr. Wicker. I see.
    Dr. Ehrenfeld [continuing]. From that Institute, for which 
often there is actually set-aside money that the Institute has 
committed, or they may be very large, multi-center clinical 
trials that are being organized.
    Mr. Wicker. I see.
    Dr. Ehrenfeld. So those are reviewed in-house by the 
Institute.
    Mr. Wicker. All right.
    Dr. Ehrenfeld. Also, most of the Institutes review their 
own training grant applications.
    Mr. Wicker. Now, as to the other 75 percent?
    Dr. Ehrenfeld. Yes?
    Mr. Wicker. As I understand it, there are reviews by two 
distinct groups. The first is the scientific review group.
    Dr. Ehrenfeld. Correct.
    Mr. Wicker. And do you call them SRGs, or is that just in 
this paper?
    Dr. Ehrenfeld. We usually call them study sections.
    Mr. Wicker. Okay. So when you say ``study sections,'' and I 
see SRGs----
    Dr. Ehrenfeld. It is the same thing.
    Mr. Wicker. That is the same thing?
    Dr. Ehrenfeld. Correct.
    Mr. Wicker. Okay. And they look at it twice; is that right?
    Dr. Ehrenfeld. No.
    Mr. Wicker. Just once?
    Dr. Ehrenfeld. The study section looks at it once.
    Mr. Wicker. Okay. And they are primarily interested in the 
scientific merit of the application?
    Dr. Ehrenfeld. Yes. So that group----
    Mr. Wicker. Not whether it is an area that the Institute 
should be delving into, but just whether it is scientifically 
meritorious?
    Dr. Ehrenfeld. That is correct. They provide the advice to 
the funding Institute before the second level of review, which 
will deal with the programmatic impact. The funding Institute 
will make its decision based both on the recommendation about 
the scientific merit--whether the application is good science, 
whether it is designed well, whether it asks significant 
questions, whether the approach is appropriate and up-to-date 
and will give the right answers, whether there is innovative 
technology or innovative ideas or innovative concepts, 
evaluation of the investigator and the environment in which the 
work will be done, and so on. They provide a broad scientific 
evaluation, and the funding Institute then will weigh that 
advice together with the programmatic mission of the Institute. 
They will decide where they feel it is best to make an 
investment of their money at this time; where is the public 
health need; where are the real scientific opportunities.

                   SELECTION OF STUDY SECTION MEMBERS

    Mr. Wicker. Okay. Now, the members of this study group--16 
to 20 members, I understand--who chooses the membership?
    Dr. Ehrenfeld. The final selection is made by the Director 
of NIH. There is a designated government official, which is an 
employee of the Center for Scientific Review, known as 
``Scientific Review Administrator.'' These are the individuals 
that coordinate and manage the study section meetings. They 
submit nomination slates, 25 percent of which turns over each 
year, and that nomination slate is submitted each year through 
our ranks for my approval and ultimately to the director of NIH 
for approval.

                         NUMBER OF NIH SECTIONS

    Mr. Wicker. I wonder how many study groups there are at a 
given time?
    Dr. Ehrenfeld. There are----
    Mr. Wicker. In the entire NIH.
    Dr. Ehrenfeld. In the Center for Scientific Review there 
are 150 study sections that meet regularly--standing study 
sections. The Institutes all together probably have another--it 
is a guess--maybe another 80.
    Dr. Kirschstein. We will provide specific figures for the 
record.
    [The information follows:]

    NIH has 205 standing peer review committees. This includes 
150 CSR standing review committees.

    Mr. Wicker. I have got to hurry, because I want to get to 
my questions.
    Dr. Ehrenfeld. Right.

                             COUNCIL REVIEW

    Mr. Wicker. I made the mistake of not asking this earlier 
when the room was empty. Now we have people waiting for their 
turn.
    When you get to the second level, that is the council?
    Dr. Ehrenfeld. That is correct.
    Mr. Wicker. Now, do all applications get to the second 
level, or are some of them rejected at the study group?
    Dr. Ehrenfeld. All of the decisions of the study section 
are reviewed and must be approved by the council.
    Mr. Wicker. Let me just----
    Dr. Ehrenfeld. Some are not rejected but they are 
recommended not very highly, but the council must approve that.

                       SPECIFIC PEER REVIEW ISSUE

    Mr. Wicker. Okay. Well, let me just say that I am going to 
ask you then today and I am going to submit for the record also 
a question about a specific application submitted by Dr. 
Charles Streckfus of the University of Mississippi Medical 
Center. He, in 1999, encouraged by the process of his previous 
research, applied for an RO1 grant to study use of saliva as a 
detector for breast cancer. He received a rating of 380. I 
understand that is a pretty good rating.
    Dr. Ehrenfeld. No, that is a pretty poor rating.
    Mr. Wicker. Pretty poor rating? Okay. Well, I am now 
advised. But he was provided with recommendations for changes. 
What would be a good number of a range?
    Dr. Ehrenfeld. The scoring range goes from 100 to 500.
    Mr. Wicker. Okay. So from 100----
    Dr. Ehrenfeld. With 100 being top and 500 being the lowest.
    Mr. Wicker. I see. Okay. At any rate, he received 
recommendations for his submission and he resubmitted his 
application. And the second time he was not even considered. He 
was triaged out of the process.
    He then went on to receive private funding for his research 
which was quite successful, and it resulted in a product by the 
FDA which has demonstrated enormous potential to provide early 
detection for breast cancer using saliva.
    He got his research done.
    Dr. Ehrenfeld. I am glad.
    Mr. Wicker. But he did not get the imprimatur of the NIH's 
blessing. Apparently, the research is going to go forward and 
great benefits are going to be realized from it. And I just 
would appreciate your commenting on that. Are we off base 
there? Is there something else he could have done? And perhaps 
you can respond right now and then respond also on the record.
    Dr. Ehrenfeld. I would be delighted to.
    [The information follows:]

    We have looked into the two reviews of Dr. Streckfus' 
applications and feel that the reviews were fair and 
scientifically sound and that the outcome was appropriate. Of 
course we have no way of knowing what additional findings, etc. 
have advanced his work since the last NIH review.

    Dr. Ehrenfeld. Without having seen the application, of 
course, it is hard to tell whether he could have done something 
differently. Perhaps the application was not convincingly 
written. Perhaps he was not--maybe it was not clear. So without 
seeing the application it is hard to comment on. It is also not 
an area of my own personal scientific expertise.
    But I think we do have to realize that, although without 
question the peer review system is uniformly considered the 
best system we have--it is kind of like democracy--it is not 
perfect. There is no way to make an absolute prediction about 
the results of research or else you would not have to do the 
research to get the answer. So peer reviewers sit together, 
they work very hard, and they try to make the best judgment as 
to whether or not a proposal would result in work that would 
have a significant impact.
    Mr. Wicker. Well, the other members of the subcommittee 
have been very kind in deferring to me on this question, but 
why would specific suggestions be made, then, when they were 
complied with, no response at all be given, just no.
    Dr. Ehrenfeld. Suggestions or recommendations were not 
made. The summary statement that the individual received the 
first time included the reasons why reviewers provided a score 
in what turned out to be a non-fundable range. It is not the 
job of the reviewers to tell somebody what they should do; it 
is their job to comment on what has been proposed. There may be 
a subtle difference. It is easy to interpret that as a 
suggestion, because if somebody says, ``This is a flaw,'' or 
``This is a weakness in the application,'' it is easy to 
interpret that as a suggestion that they should do something 
else.
    Dr. Kirschstein. Mr. Wicker, may I make some comments, 
please, Mr. Chairman? May I?
    You are quite right in one way. The institutes each have 
scientific staff that I talked about yesterday who learn of 
these reviews and who we hope work with the applicants to give 
them suggestions, not specifics, because nobody should tell an 
individual how to put together his or her application.
    We would need to look at the whole picture in this case. It 
may, indeed, be a series of conundrums that were misplaced in 
some way or other. But we are working, as you know, with 
investigators at the University of Mississippi. I, myself, have 
been down there twice. We have the associate dean for research 
at the Jackson campus, who has been up and visited us on many, 
many occasions. And we hope to have things wherethere is more 
interaction and we can improve things.
    We would have to look at the whole picture in this case to 
be sure what happened.
    Dr. Ehrenfeld. And we would be happy----
    Dr. Kirschstein. And we will.
    Dr. Ehrenfeld. We will be happy to do that.
    Mr. Regula [assuming Chair]. We have a vote in about 20 
minutes, so I want to give everyone a chance to ask questions. 
We will start with Ms. Granger.
    Ms. Granger. No questions.
    Mr. Regula. Mrs. Northup.
    Mrs. Northup. Mr. Chairman, maybe I should start. I have a 
couple of questions about the transfer of technology to the 
private sector, who owns patents and so forth. I have sort of 
been looking for a place to have this discussion. Would it be 
possible to ask these questions at this time?
    Mr. Regula. Certainly. Go ahead.
    Dr. Kirschstein. Yes.
    Mrs. Northup. As I understand it, there is basic research. 
As basic research has advanced and expanded in this country, 
there is a growing number of patents and licenses that are 
owned by the universities, I guess, where the developments or 
the discoveries are made that are then sold to the private 
sector, and that this is good, because the private sector then 
funds the clinical trials and so forth that helps get that to 
widespread distribution, something this committee has been 
concerned about.
    What my concern is, it is my understanding that these--when 
they sell the license and patents, that they usually sell it, 
but the researcher is allowed to continue to use their 
discovery to further their research. In other words, you sell 
it for all commercial use, but you do not necessarily sell the 
license or patent for the nonprofit continuing discovery. Is 
that----
    Dr. Kirschstein. That is basically true, and it is a little 
more complicated than that, and we have experts who can provide 
specific information, but that is basically true.
    Mrs. Northup. Well, specifically we have a researcher that 
is on the cutting edge of bone marrow transplants and so forth, 
made a discovery at the University of Pittsburgh, I guess. 
Pittsburgh sold the patent for this to a private company and 
the researcher is now located at a different university and 
wants to continue this.
    This discovery was made with taxpayer dollars.
    Dr. Kirschstein. Correct.
    Mrs. Northup. But Pittsburgh has no reason to pursue 
forcing her to still continue to use her discovery to advance 
it further because she is now at a different university, so 
they have just said, ``Well, it is up to the private company 
that now owns this patent,'' and they say, ``No, the researcher 
cannot continue using this process that she discovered, that 
she brought their company officials on site and trained them in 
this process.'' She is no longer able to use this process for 
furthering her discoveries where she is now located.
    Now, if that is true, then in my opinion we need to clarify 
the law that a researcher that has developed something--I mean, 
let me just say it strikes me that the private sector would 
always have an interest in not allowing the researcher to 
continue using their technology that they invented, because if 
you freeze development at a certain point you own the cutting 
edge, there will not be any new--you slow down any patent that 
might make obsolete your previous patent.
    So private companies would have the incentive never to 
allow the researcher that developed it to continue working in 
their own field.
    Dr. Kirschstein. And that, of course, Ms. Northup, is not 
the intent of NIH. I think we need to look at the details. I 
have actually heard about this particular situation. I am not 
an expert in the area. I believe our Office of Technology 
Transfer is looking into the situation, and I will ask them to 
contact you to discuss it.
    Mrs. Northup. Well, I have to tell you I have a letter from 
you all that basically said, ``Tough luck.'' That is how I 
interpret it.
    Dr. Kirschstein. Let me have it looked into again, please.
    Mrs. Northup. I have the letter right here. But it 
basically said, ``I am sorry, the University of Pittsburgh sold 
that patent and it is too bad. She has no rights. She cannot 
continue.''
    I mean, I am wondering where else across this country 
taxpayers have funded research that the university sells the 
patent and basically the private company is shutting the 
researcher down.
    Dr. Kirschstein. I do not know the specifics of what the 
letter said. We will look into it. The laws that are extant in 
this case under the Bayh-Dole Act, which was passed, if I am 
not mistaken, in the early 1980s, and maybe there are things 
that need to be looked at, but we will have somebody look at it 
and I promise that I and the staff will get back to you.
    Mrs. Northup. You know, I feel like this has been simmering 
for over a year--for over a year that the research has been 
stopped. The clinical trials are ready to begin. The children 
with sickle cell that depend on these opportunities cannot be 
treated.
    First I want to know what can be done tomorrow to fix this 
problem, but I also want to know where the law is in terms of 
who owns breakthroughs.
    I understand what the private sector can do to convey to 
forward the distribution and dissemination of new developments, 
get them through the clinical trials, and get them across the 
country so that they can be used, but maybe what we need to do 
is clarify the law that the investigator and the people whose 
brain power was used to develop this can continue developing 
the next step.
    It is outrageous to me that this company actually came into 
this university, that their people were trained in this process 
on taxpayers' land and under the money of taxpayers, and that 
they have taken it now and that they are refusing to let this 
team of investigators go forward with any use of their own 
process. They cannot even use their own process, much less 
advance it further.
    Dr. Kirschstein. We will get back to you, Ms. Northup.
    Mrs. Northup. I might say I will be very interested in 
getting your response on that. I have been a little bit 
concerned, too, that you have the drug companies getting the 
advantage of research that is taxpayer financed, and they then 
have an exclusive.
    I know the Bayh-Dole Act has an impact on this, and I think 
maybe we need to take a look at that.
    And, Mr. Chairman, let me just say again I understand that, 
for example, the drug companies, that they then fund trials and 
get it through FDA and that they need some protection. What we 
are talking about here is the person that developed whatever it 
was that provided the technology that the drug company started 
with, them shutting this investigator down--this is their 
career--not allowing them to develop a new generation of drug 
because that will make what they have done obsolete.
    That is really, in my opinion, criminal.
    Mr. Regula. We will be interested in the response.
    Dr. Kirschstein. We will give you a response, and also, if 
requested, Dr. Frer, who is the director of our Office of 
Technology Transfer, and the people who have the invention 
reporting responsibility would be pleased to come down and 
brief anybody or the entire group.
    Mr. Regula. We will welcome that.
    Mr. Peterson.

                          ENERGY CONSERVATION

    Mr. Peterson. Yes. The question I was going to ask is a 
long way from the last one. I thought the title this morning 
was about research and infrastructure, and I was interested, in 
reading your report, on your energy conservation measures. 
Would you like to give us an update? Are you an agency that is 
leading the Federal Government in energy efficiency? And, if 
you are, since this is the day that the energy program is being 
put out on the table for the country, I guess I am interested 
in your success story of being high tech and using energy 
efficiently in NIH.
    Mr. Ficca. In the past couple of years we have received 
about 12 national awards because of energy conservation and 
water conservation.
    I think the most recent project that is under consideration 
is a partnership with our energy provider, the local utility 
company providing electricity, where we are going to be 
financing and building a cogeneration facility which will 
generate both electricity and steam, eliminating the need for a 
boiler. We have converted our plant to all natural gas already.
    The cogeneration facility will allow us, over the next ten 
to fifteen years, to save over $55,000,000 in energy costs, it 
will reduce the pollutant emissions by 600 tons per year, as 
well as 100,000 tons per year of greenhouse gases will be 
reduced.
    So we are pretty proud of what we have done. The Louis 
Stokes Laboratories Building uses a new technology called 
``heat wheels'' to make it 40 percent more efficient in energy 
consumption, and that has won an award--as a showcase facility 
identified by the Department of Energy.
    Mr. Peterson. Did you say you have switched to all natural 
gas?
    Mr. Ficca. Yes, we have.
    Mr. Peterson. Okay. Do you have some sort of a report that 
can be given, the success story of NIH?
    Mr. Ficca. Yes, we do. It is in a little rough shape right 
now, but I think that we can polish it up and have the report 
available for the committee.
    [The information follows:]

    The report is being reviewed. Upon completion of the 
review, the report will be forwarded to the Subcommittee.

    Mr. Peterson. I mean, I think we are all going to be 
looking at how--in my view, if we are going to be conserving in 
this country, Government has to not dictate. First, they have 
to be an example.
    Mr. Ficca. Absolutely. We feel exactly the same way.
    Mr. Peterson. And so I would be delighted to have a copy of 
that. Thank you.
    Mr. Regula. I have been advised that the vote is probably 
not going to come for about an hour, so we have additional 
time.
    Do you have any additional questions, Mr. Peterson?
    Mr. Peterson. No.
    Mr. Regula. Mr. Miller.

               MARK O. HATFIELD CLINICAL RESEARCH CENTER

    Mr. Miller. When do you move into the new facility? I am 
sorry I missed the presentation. You may have discussed it.
    Dr. Kirschstein. Which facility?
    Mr. Miller. The main Hatfield facility, the status, the 
timing of that, the renovation of the old facility. And what is 
Building 10? Is that----
    Dr. Kirschstein. The old facility.
    Mr. Miller. Old facility. That is a very creative name. 
[Laughter.]
    Dr. Kirschstein. It is also called the Warren G. Magnuson 
Clinical Center.
    Mr. Miller. Okay.
    Dr. Kirschstein. And the new facility will be called the 
Mark O. Hatfield.
    Mr. Miller. Right. I know that. I may have missed that 
earlier presentation.
    Mr. Ficca. The question was when. Occupancy is planned for 
the spring of 2003 to late 2003.
    Mr. Miller. And the current facility, number 10, is being 
converted to what?
    Mr. Ficca. Upon occupancy of the new hospital, there will 
still be many research laboratories that are left back in the 
old building, which is otherwise now deficient in many of the 
building systems and we need to do a major renovation in that 
facility, and so it will be--the patient care units that will 
be vacated by the virtue of occupancy in the new hospital will 
be converted to laboratories.

                      ACCESS TO HEALTH INFORMATION

    Mr. Miller. Let me ask about the Library of Medicine. I 
have been looking for some stuff on there. Is everything 
available to everybody on that website, or are some areas 
closed off, or is there any restrictions on who has access to 
what, or anything?
    Dr. Lindberg. No, there are no restrictions, whatever, and, 
insofar as they are able, everything is available on the 
Internet, on-line.
    Mr. Miller. Okay. So internally I guess you would have more 
access. I mean, I am not an expert on this, but I was trying to 
call from my home computer in Florida and I kind ofthought some 
was not available. I do not know if that was--maybe it was not up yet 
or something like that.
    Dr. Lindberg. What kind of answer did you get? Apparently 
the wrong one.
    Mr. Miller. That may be just one time.
    Dr. Lindberg. Well, I guess I should say that there is a 
distinction between a bibliographical record being available in 
an abstract, which is generally the case, and then only in some 
cases can you get to the full text of the full article because 
there is a copyright held and so forth.
    Now, in the modern way things are going, most of the 
publishers--in fact, some 3,000 journals--allow the user to 
pass through, you know, point and click, and get to a home page 
run by the publisher that displays the full text. So it is 
almost the case that you can get to everything on line, but not 
quite.

                     CLINICAL CONSENSUS CONFERENCE

    Mr. Miller. Maybe I need to go back some more again. This 
was a program that was held at NIH on a specific issue, and so 
they had a couple of days of presentations, but the 
presentations were not available.
    Dr. Lindberg. I see. Yes, that is true.
    Mr. Miller. So how would that normally--I mean, when NIH 
sponsors an event----
    Dr. Kirschstein. Are you talking about a conference?
    Mr. Miller. A conference. Right.
    Dr. Kirschstein. Yes.
    Mr. Miller. Symposium, whatever it is. Would not those 
normally, all the presenters--how would that be treated?
    Dr. Lindberg. When they have a meeting called a ``clinical 
consensus conference,'' ultimately, in the fullness of time, 
that all gets transcribed and written up and approved and 
agreed to by the people who are participating and published, 
and then we have it. But up until the time that happens the 
library has no access.
    Mr. Miller. So it will eventually be up and on? Maybe I 
looked at it too soon after it.
    Dr. Kirschstein. Mr. Miller, if any member of the public or 
any one of you, of course, would contact our communications 
office, we can provide materials. We do all the time.
    Mr. Miller. I know. I am sure you would have provided it, 
but I was just curious. So ultimately it would get up on the 
Internet.
    Dr. Lindberg. Yes.
    Mr. Miller. It just takes the time. Anything that is an 
NIH-sponsored symposium, conference, or such, as open to the 
public type event.
    Dr. Kirschstein. Absolutely.
    Mr. Miller. Okay. So I caught it too soon afterwards.
    Dr. Lindberg. It is the case, however, that the libraries 
do not write books, they just organize them, so we have to wait 
until stuff gets written.
    Mr. Miller. It is a great resource and I have used it on 
more than one occasion, but I remember that one. But I think it 
was a timing thing, so I will go back up and look at it.
    Dr. Lindberg. Thank you.
    Mr. Miller. Thank you very much.
    Thank you, Mr. Chairman.

                   OLDER AMERICANS HEALTH INFORMATION

    Mr. Regula. We have another hearing at 11:00, so we have a 
few minutes yet.
    A survey conducted by Microsoft and the American Society on 
Aging found that 24 percent of seniors age 60 or older use 
computers, and we know that those over 65 incur 50 percent of 
all health care costs. Dr. Lindberg, I understand you are 
working on the development of a website designed for older 
Americans.
    Dr. Lindberg. Yes, that is right.
    Mr. Regula. You might tell us a little bit about that.
    Dr. Lindberg. We are doing that, of course, in 
collaboration with the National Institute on Aging, and in 
imitation of a former printed idea they had called ``Age 
Pages.'' This has been rather interesting, because out of this 
has come standards, amazingly enough, that are published and 
shared with others on what size font should be used, because, 
of course, people as they age----
    Mr. Regula. That is true.
    Dr. Lindberg [continuing]. Their sight does not improve, at 
least mine has not. And then some advice on the use of colors. 
You can have too many, of course. Naturally, the content is 
what is really important. I mean, what information do people 
want and how do they want you to give it to them.
    It has turned out that this particular page will be ready I 
think by fall. I mean, it exists and has been sort of tested, 
testing right now, but it includes some video because, for 
instance, if it is a focus, as it is initially, on Alzheimer's 
disease, then the people want to know, well, how would you 
tell, and if they do a test on you what does it look like. So 
the video actually shows very interestingly a perfectly, let us 
say, normal-appearing person sitting down, and actual 
Alzheimer's patients being questioned by an actual neurologist, 
and you see that once you ask the right questions the deficits 
are made evident. So a family member--this is particularly 
helpful to family members--can begin to see what is that 
behavior that is early Alzheimer's.
    So, anyway, we are trying our best to produce everything 
that a patient or a member of the family or the public would 
want to have on that miserable disease and links to new 
progress and links to new newspaper articles, even. It is often 
that journalists explain it better than we doctors.
    So I am very enthusiastic about it, and the partnership 
with NIA has been very nice.
    Mr. Regula. I think it is a great idea. What I am finding 
is that libraries are putting in computer technology and 
Internet access and seniors who do not have equipment in their 
own home can use the libraries.
    Dr. Lindberg. Right.

                  PUBLIC LIBRARIES AND OLDER AMERICANS

    Mr. Regula. I was thinking as you were talking, when this 
system is on-line, how could we get libraries to realize that 
this is available to them because libraries, to some extent, 
become senior centers. It would be a great service.
    Dr. Lindberg. We have been thinking along exactly those 
same lines. A couple of years ago I started an experiment with 
34 public libraries, thinking that--well, first, you said that 
24 percent of the elderly population use computers, but I 
think, at best, half of the adult population, so it means half 
of them do not have computers and connectivity. So we are 
thinking along your lines. Well, there are public libraries. 
There are a lot more of them than there are medical libraries. 
They are more easily accessible, we think.
    So we started an experiment, thirty-four libraries in five 
States, asking the question, ``Will anybody bring a health 
question to a public library? Yes or no? If so, what is it? 
What kind of answers do they get and how can we help?''
    The result of that is now a more full-blown program with 60 
libraries in, I guess, 34 States or some larger number, but 
basically people do bring health questions to public libraries.
    Mr. Regula. Yes.
    Dr. Lindberg. We had to help with a little publicity, you 
know. You have to realize that they are willing to accept them.
    Mr. Regula. Yes.
    Dr. Lindberg. The public librarians are quite, in some 
cases, very, very able. I mean, for instance, I called upon the 
uptown branch of the New York Public Library, Kent Smith went 
up to 96th Street. I mean, this is a big town, and those are 
very, very--they can answer anything, you know. There is no 
problem there. They would like a little more training, as most 
public librarians would, in how to do medical searches, but it 
is all working quite well.
    I think that was what mostly we got out of it. Yes, people 
bring the questions. Yes, the librarians are willing to try to 
answer them. And yes, they would like our help in learning how 
to use the advanced systems.
    So I think you have got it exactly right. This is just the 
direction we should push in.

                                  AARP

    Mr. Regula. Well, as a suggestion, once this is on-line, 
you ought to write an article about the service for national 
publication that reaches all librarians across the country so 
they, in turn, know about it and they will then be able to 
advise their senior clientele.
    Dr. Lindberg. Actually, we have been trying to get into 
AARP, but that has not worked so far.
    Mr. Regula. You mean they will not carry this in their 
literature?
    Dr. Lindberg. Not yet. Those are the people we would like 
to actually----
    Mr. Regula. Well, they have a great outreach, without any 
question, and I cannot imagine that they would not be willing 
to advise their membership of this service.
    Dr. Lindberg. Maybe if you would co-author the article with 
me. [Laughter.]
    Mr. Regula. Well, you are tempting me. We do fund library 
programs. I am going to call AARP, frankly. [Laughter.]
    Helping people is what this is all about, and that is what 
AARP is supposed to be about.
    Dr. Lindberg. I agree completely. We will have a draft on 
your desk in the morning. [Laughter.]
    Mr. Miller. Mr. Chairman?
    Mr. Regula. Yes, I yield.

                      CONSUMER HEALTH INFORMATION

    Mr. Miller. When I was asking questions earlier I was very 
pleased when I was searching on several occasions at how--and I 
am not an expert at this, but I was able to find information 
and retrieve it. The only time I remember was that one. It was 
a fairly recent seminar, and I understand now why it was not. 
But for someone that is not very sophisticated at it, I was 
able to keep putting in the words and all the sudden things 
kept popping up, so I thank you for having it. I am strictly 
apeaking as a layman retrieving it. It is a great service, and 
I have had friends say it is a great source of information.
    Mr. Regula. When do you expect to be on-line?
    Dr. Lindberg. We are on-line.
    Mr. Regula. You are on-line now?
    Dr. Lindberg. Yes.
    Mr. Regula. Have you completed the----
    Dr. Lindberg. We have not completed this Age Page thing. 
That is just being tested. That will be up, I guess, by 
September. But there is plenty of information on Alzheimer's 
already.
    Mr. Regula. Well, I will wait for the article.
    Dr. Lindberg. Yes. I should say that things are shifting a 
little bit. I mean, MEDLINEplus is a database on 450 health 
topics aimed at patients' families and the public, so I would 
hope, Mr. Miller, that that is one of the things you hit, 
because that is meant to be very easily understandable. 
MEDLINE's file, itself, is for scientists and doctors. But 
actually what we are finding is the stuff we package for the 
public, MEDLINEplus is sufficiently good that in the dark of 
night doctors are slipping in and reading it, because if you 
stop and think, I mean, how many of us know fully 450 diseases. 
Not so many. So the back field is in motion.
    Dr. Kirschstein. The NIH home page and the home pages of 
the various institutes has among the highest hits of any 
Government agency.
    Mr. Regula. Well, you have a group that needs it and have 
time and are curious.
    Dr. Kirschstein. Yes.
    Mr. Regula. Well, we are running out of time, so I have 
just one other question.
    You contracted with Arthur Andersen to review NIH's 
administrative procedures. I am always interested in any 
Government agency, whether we take the Booz-Allen or the Arthur 
Andersen approach and say, ``Does this work? Is this cost 
effective? Are we getting our value received for our tax 
dollars?'' So I would be interested in what you got out of that 
study.
    Dr. Kirschstein. The study was completed some time ago, 
sir, and we will provide you with a copy of it.
    [Clerk's note.--A copy of the study is retained in 
Committee files.]
    Dr. Kirschstein. It made a number of recommendations 
relative to our organizational structure, and particularly how 
the services that undergird the research activities, some of 
which you have heard today, and particularly our administrative 
services, should be organized, and we have put most of those 
into effect. We will send you both the report and how we 
implemented it.
    Mr. Regula. Well, the bells mean we have to go vote. So 
much for the accuracy of our information that the vote would be 
an hour from now.
    Anyway, I thank all of you for coming. I hope we can have 
time to do some oversight hearings when we get the regular 
hearing schedule completed. We may want to look into that. I am 
pleased that you are implementing the Arthur Andersen 
recommendations. I think we need to always be searching for 
ways to make our activities more efficient.
    Dr. Kirschstein. If you do oversight hearings, we would be 
pleased to brief the committee on the issues Ms. Northup 
brought up. We will do it any other way, as well.
    Mr. Regula. Well, I think that will be a growing concern. 
You mentioned a company yesterday that will be marketing a 
cancer pill, and I assume they have an exclusive----
    Dr. Kirschstein. Novartis. Yes.
    Mr. Regula. Novartis. I think some drugs are developed with 
taxpayers' money and it is a fine line as to howavailable it 
should be for all companies to use the information.
    Dr. Kirschstein. We agree.
    Mr. Regula. So I think it is a subject, including Bayh-
Dole, we need to review.
    Dr. Kirschstein. Exactly.
    Mr. Regula. Although it is the authorizing Committees 
responsibility, nevertheless, we have an interest.
    Well, thank you again for coming.
    Dr. Kirschstein. Thank you, Mr. Regula, for giving us the 
opportunity to give you these theme hearings, in addition.
    Mr. Regula. The Committee will be recessed for the vote, 
and then we will take up the NLRB.
    [The following questions were submitted to be answered for 
the record:]


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                               I N D E X

                              ----------                              

                     NATIONAL INSTITUTES OF HEALTH
                         Infrastructure Hearing

                                                                   Page
AARP.............................................................    49
Access to Health Information.....................................    46
Across-the-Board Increases.......................................    53
Asbestos Abatement...............................................    12
Budget Request for Buildings and Facilities......................     3
Chimpanzee Retirement Program....................................    56
Clinical Consensus Conference....................................    47
Consumer Health Information......................................    50
Council Review...................................................    39
Energy Conservation..............................................    45
Energy Savings...................................................     4
Health and Safety Compliance.....................................    12
Introduction of Dr. Ehrenfeld....................................    12
Mark O. Hatfield Clinical Research Center........................    46
Medicare Spending................................................    52
National Library of Medicine--Introduction.......................    25
NCRR Programs....................................................    31
NIH EPSCoR and IDeA Program......................................    56
Number of NIH Selections.........................................    39
Older Americans Health Information...............................    48
Opening Remarks/Statement........................................     1
Opening Remarks/Statement--B&F...................................     3
Opening Remarks/Statement--CSR...................................    13
Opening Remarks--NIGMS...........................................    19
Opening Statement--B&F...........................................     6
Opening Statement--CSR...........................................    15
Opening Statement--NCRR..........................................    33
Opening Statement--NIGMS.........................................    20
Opening Statement--NLM...........................................    27
Peer Review Process..............................................    38
Private Patents on Federally Funded Research.....................    65
Public Libraries and Older Americans.............................    49
Quality of Research..............................................    66
Research Activities..............................................    54
Research Training................................................    13
Scientific Review Groups.........................................    64
Selection of Study Section Members...............................    39
Specific Peer Review Issue.......................................    40
Titan Media Advertisement on the HIV/AIDS Vaccine Program........    55

                                <greek-d>

</pre></body></html>
